                                                        NATIONAL SCIENCE FOLPJDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: ~ 0 8 0 3 8 0 9
                                                                                    1          Page 1 of 1



                 A reviewer1 alleged that a "casual" reviewer of a proposal2 could conclude that
          experimental data included in the proposal had been gathered by the PI, when in fact these data
          were the research results of others. The reviewer claims further that no attribution for the data is
          given in the proposal. Our evaluation of the proposal shows clearly that the data is attributed to
          the work of others both by introduction by name in the text of the proposal,3 and by specific
          reference, with the reference being listed as a private communication fiom one of the researchers
          whose work is de~cribed.~   Therefore, there is no substance to support the allegation.
                                                        I



                    Accordingly, this case is closed.                               1




           1
               Redacted.
           2
               Redacted.
               Redacted.
           4
               Redacted.


I'
 NSF OIG Form 2 (1 1/02)
